OIG Investigative Reports, Saugus Couple Convicted for Identity Theft and Bank Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
April 6, 2005
PRESS RELEASE
SAUGUS COUPLE CONVICTED FOR IDENTITY THEFT AND BANK FRAUD
Boston, MA... A Saugus husband and wife were convicted April
4, 2005 in federal court for identity theft, bank fraud, credit card fraud
and various other federal offenses.
United States Attorney Michael J. Sullivan; Peter Zegarac,
Acting Inspector in Charge of the U.S. Postal Inspection Service in New England;
Gary Mathison, Special Agent in Charge of the U.S. Department of Education's
Office of Inspector General in New England; Robin M. Avers, Special Agent
in Charge of Immigration and Customs and Enforcement in New England; Leo Sullivan,
Special Agent in Charge of the U.S. Social Security Administration's Office
of Inspector General in New England; James MacKay, Chief of the Saugus Police
Department; Kathleen O'Toole, Commissioner of the Boston Police Department;
and Leo A. Sacco, Chief of the Medford Police Department, announced that ITZA
RUIZ, age 39, and HERIBERTO RUIZ, age 48, both residing at 226 Essex Street,
Saugus, Massachusetts, pleaded guilty before U.S. District Judge Rya W. Zobel
to a twenty-three-count Indictment, charging them with Identity Theft, Bank
Fraud, Credit Card Fraud, and Making False Statements in Documents required
by Federal Immigration Law. The twenty-three count indictment also charged
ITZA RUIZ with Student Financial Aid Fraud, Making False Statements in Loan
Applications, Making False Statements and Entries in an INS Employment Eligibility
Verification Form, and Misrepresentation of a Social Security Account Number.
The Indictment also seeks forfeiture of the couple's marital home.
At the plea hearing the prosecutor told the Court that, had
the case proceeded to trial, the evidence would have proven that over a three
year period, ITZA RUIZ stole the name and personal identifiers of a woman
and used the stolen identity to purchase a $318,250 mortgage for her Saugus
home. ITZA RUIZ used the stolen identity to obtain student financial aid PELL
grants and supplemental educational opportunity grants to attend college,
and obtained employment at a time when she was not a legal permanent U.S.
resident. ITZA RUIZ also obtained several credit cards and personal loans
using the stolen identity. In addition, ITZA RUIZ obtained two residential
telephone numbers through Verizon using the stolen identity, and opened a
checking account at St. Jean's Credit Union.
HERIBERTO RUIZ aided and abetted ITZA RUIZ in committing these
offenses, including personally applying for, and co-signing, the mortgage
loan for their Saugus home.
Additionally, when ITZA RUIZ applied for U.S. citizenship,
ITZA RUIZ and HERIBERTO RUIZ, her sponsor, provided false information upon
which the Immigration and Naturalization Service relied in issuing ITZA RUIZ
a green card.
The evidence would proven that the victim of the identity theft
learned that her identity had been stolen when she attempted to obtain financing
for a new car, and was subsequently denied that financing due to a negative
TransUnion Credit Report rating that reported she had an outstanding mortgage
of $317,382 for property located at 226 Essex Street in Saugus. The victim
was able to track down ITZA RUIZ and HERIBERTO RUIZ through the credit report
she had obtained, which listed telephone numbers and addresses for the debtors.
In early August of 2003, the victim called ITZA RUIZ and HERIBERTO
RUIZ and confronted them about the theft of her identity and warned them that
she was going to the police. The evidence would prove that the couple asked
the victim for some time to fix the problem, and, thereafter, ITZA and HERIBERTO
RUIZ proceeded to systematically undo ITZA RUIZ's false identity and to pay
off the exorbitant number of credit cards and loans obtained under the victim's
personal identifiers. As of today's date, there is still an outstanding balance
of $17,715 fraudulently remaining under the victim's personal identifiers.
Judge Zobel scheduled sentencing for June 22, 2005. ITZA RUIZ and HERIBERTO
RUIZ each face up to 30 years' imprisonment and a fine of $1 million if convicted
of the Bank Fraud charges, 15 years' imprisonment and a $250,000 fine on each
count of Credit Card Fraud and Identity Theft, and 10 years' imprisonment
and a $250,000 fine on each count of Making False Statements in Documents
required by Federal Immigration Law. ITZA RUIZ also faces up to 5 years' imprisonment
and a $20,000 fine on each count of Student Financial Aid Fraud, 30 years'
imprisonment and a $1 million fine on each count of Making False Statements
on a Loan Application, and 5 years' imprisonment and a $250,000 fine on each
count of Making False Statements and Entries on an INS Employment Eligibility
Verification Form and Misrepresentation of a Social Security Account Number.
Following their release from prison, the defendants face up to 3 to 5 years
of supervised release.
The defendants remain on pretrial release pending sentencing
on a $25,000 unsecured bond.
The case was investigated by the Massachusetts Identity Theft/Financial
Crimes Task Force led by the U.S. Postal Inspection Service with the assistance
of the U.S. Department of Education's Office of Inspector General, Immigration
and Customs Enforcement, the U.S. Social Security Administration, and the
Saugus, Boston and Medford Police Departments. It is being prosecuted by Assistant
U.S. Attorney Antoinette E.M. Leoney in Sullivan's Major Crimes Unit.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 04/12/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov